WAIVER

Supreme Court, U.S.
FILED

NOV 0 4 2019
OFFICE OF THE CLERK

SUPREME COURT OF THE UNITED STATES
Supreme Court Case No.

2019-459

Texas Brine Company, LLC

v.

Florida Gas Transmission Company, LLC, et al

(Respondent)

(Petitioner)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested
by the Court.
Please check the appropriate boxes:

EI

Please enter my appearance as Counsel of Record for all respondents.

0 There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):
The Travelers Indemnity Company (individually and as successo to Gulf Insurance Company

and The Travelers Indemnity Company of Connecticut
0 I am a member of the Bar of the Supreme Court of the United States.

F I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a B

membe

Signature
Date.

Nov mber 4, 2019

(Type or print) Name

Seth A. Schmeeckle
0 Mr. 0 Ms. 0 Mrs. 0 Miss

Firm

Lugenbuhl, Wheaton, Peck Rankin & Hubbard

Address

601 Poydras Street, Suite 2775

City & State
Phone

New Orleans, Louisiana

504-568-1990

Zip
Email

70130

sschmeeckle@lawla.com

A COPY OF THIS FORM MUST BE SENT TO PETITIONER'S COUNSEL OR TO PETITIONER
IF PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.

CC: Paul Hughes, McDermott Will & Emery, 500 N. Capital Street, NW, Washington, DC .2.000%

Lugenbuhl
LUGENBUHL, WHEATON, PECK, RANKIN & HUBBARD
A,LAW CORPORATION
601 Poydras Street I SUITE 2775 I New Orleans, LA 70130
TEL: 504.568.1990 I FAX: 504.310.9195

Seth A. Schmeeckle
sschmeeckle@lawla.com

November 4, 2019

Via U.S. Mail
Supreme Court of the United States
1 First Street, NE
Washington, DC 20543
Re:

Texas Brine v. Florida Gas Transmission Company, LLC, et al
Supreme Court of the United States. No. 19-459

Dear Sir or Madam:
Please find enclosed our Supreme Court of the United States Waiver in regards to the
above referenced subject.
Sincerely,

eth A. Schmeeckle
SAS/ist
Enclosure

RECEIV -D
NOV 14 2019
OFFICE OF THE CLERK
SUPREME COURT U.S.

LUGENBUHL, WHEATON, PECK, RANKIN & HUBBARD
601 Poydras Street, Suite 2775, New Orleans, LA 70130 • (504) 568-1990 • (504) 310-9195
9311 Bluebonnet Boulevard, Suite A, Baton Rouge, LA 70810 • (504) 568-1990 • (504) 310-9195
801 Travis Street, Suite 1800, Houston, TX 77002 • (713) 222-1990 • (713) 222-1996

